         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Department of Energy's Controls
over Recovery Act Spending at the
Idaho National Laboratory




OAS-RA-L-11-10                       July 2011
DOE F 1325.8
(08-93)

United States Government                                                                 Department of Energy


Memorandum

        DATE:    July 21, 2011                                          Audit Report Number: OAS-RA-L-11-10

     REPLY TO

     ATTN OF:    IG-35 (A10RA038) 


     SUBJECT:    Report on "Department of Energy's Controls over Recovery Act Spending at the Idaho
                 National Laboratory"

           TO:   Principal Deputy Assistant Secretary, Office of Environmental Management, EM-1

                 INTRODUCTION AND OBJECTIVE

                 The Department of Energy's (Department) Office of Environmental Management (EM)
                 oversees two major contracts for cleaning up the legacy contamination at the Idaho
                 National Laboratory (INL). The 7 year, $2.9 billion contract with CH2M♦WG Idaho, LLC
                 (CWI), was established in 2005, for a wide range of INL clean-up functions and is
                 scheduled to end September 30, 2012. Under this contract, CWI was entitled to incentive
                 fees if it completed work for less than target costs. The second contract, valued at
                 $843 million, was with Bechtel BWXT Idaho, LLC (Bechtel) to operate the Advanced
                 Mixed Waste Treatment Project and is scheduled to end in Fiscal Year 2011.

                 Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the
                 Department provided CWI with $422.75 million and Bechtel with $22.5 million to
                 accelerate the INL cleanup effort. CWI's funds were for, among other things, accelerating
                 the deactivation and decommissioning (D&D) of nuclear and radiological facilities,
                 retrieving and processing remote handled transuranic waste, and waste exhumation at the
                 Subsurface Disposal Area (SDA). Bechtel's funds were for accelerating the treatment,
                 shipment, and disposal of transuranic and mixed low-level waste. EM planned to complete
                 its INL Recovery Act work by September 30, 2011.

                 Because of the significance of this Recovery Act work and the plan to accelerate cleanup
                 operations, we initiated this audit to determine if the Department efficiently and effectively
                 managed Recovery Act funded projects under the CWI and Bechtel contracts.

                 CONCLUSION AND OBSERVATIONS

                 We found that CWI and Bechtel were generally on schedule to meet established cost and
                 schedule estimates for Recovery Act funded work. Additionally, for the projects that we
                 reviewed, we did not identify any material issues with CWI and Bechtel compliance with
                 selected Recovery Act requirements, including the segregation of funds. However, for the
CWI Recovery Act funded work, we identified certain weaknesses in the manner in which
the Idaho Operations Office managed the CWI contract and measured performance for
incentive fee determination purposes.

                          Recovery Act Performance Measurement

Our review disclosed that the Department measured CWI's cost performance for the
Recovery Act funded D&D and SDA waste exhumation work against the original target
cost of $218.8 million established in 2005, rather than using the more current, detailed cost
estimate of $120.8 million, which was developed to fund this Recovery Act work. In
particular, the Department's 2005 contract with CWI established a target cost of
$218.8 million to complete a portion of the D&D and SDA projects. However, in 2008, the
Department postponed CWI's work on these projects beyond the contract's 2012 expiration
date due to changing funding priorities. Specifically, the work was postponed when the
cost of another project within the scope of the contract, the Sodium Bearing Waste Project,
increased. Postponing the D&D and SDA activities beyond the term of the contract
effectively removed these activities from the contract's scope. In 2009, the Department
decided to use Recovery Act funding to perform the previously postponed D&D and SDA
work. As directed by the Department as a prerequisite for receiving Recovery Act funding,
CWI prepared a detailed estimate in 2009, which determined that the work could be
completed at a cost of $120.8 million, or approximately $98 million less than the
$218.8 million target cost established in 2005. The Department used the $120.8 million
estimate to obligate Recovery Act funds for the previously postponed work and to require
the contractor to complete the work by September 2011, effectively bringing this work
back into the contract. However, the Department continued to measure the contractor's
cost performance for incentive fee determination purposes against the original
$218.8 million target cost established in 2005.

When we discussed this discrepancy with management, Department officials asserted that
the original cost estimate of $218.8 million was appropriate and fair to use for incentive fee
determination purposes since this amount was established in the competitively awarded
contract in 2005. Management stated that it would not be fair to reduce the contractor's fee
earning potential by measuring performance against the lower cost estimate since the
reason for the lower estimate was the contractor's efficiencies in completing this work.
Departmental management also asserted that since the work was merely postponed and was
not removed from the contract, it was appropriate to measure performance against the
contracted cost estimate of $218.8 million.

We found, however, that the Department had not followed acquisition and project
management requirements when it determined that the D&D and SDA projects could not be
performed within the contract term. Federal Acquisition Regulation 52.243-2, Changes -
Cost Reimbursement, which is incorporated by reference in the CWI contract, requires the
Contracting Officer to make an equitable adjustment when the Government's actions change
the time of performance of any work under the contract. We noted that the Contracting
Officer was acting in accordance with the contracting regulations by adding scope that
increased the cost of the Sodium Bearing Waste Project. However, since that

                                          2

action affected the contractor's ability to complete the remaining portions of D&D and SDA
work, the Contracting Officer should have made an equitable adjustment to the contract to
remove that scope of work.

Additionally, DOE Order 413.3B, Program and Project Management for the Acquisition of
Capital Assets, states that the performance baseline change process should not be used to
circumvent proper change control management and contract management. However, rather
than formally modifying the contract to remove the work scope, as required, the Department
used the schedule baseline to postpone the work to occur after the end of the contract period.
The Department retained the work in the contract with the hope that other clean-up work
might be completed under cost estimates and the resulting savings could be applied to this
scope of work. Had action been taken to modify the contract, as required, the Department
could have renegotiated the target cost in 2009, when Recovery Act funds became available.

                           Impact on Performance Incentive Fees

Had the Department renegotiated the work in question and been successful in reducing the
price below the original $218.8 million estimate, it would have been able to avoid payment
of at least a portion of the incentive fee, while still providing fair compensation to the
contractor. The CWI contract has a cost-plus-incentive-fee structure that permits CWI to
earn an incentive fee based on a comparison of actual costs to target cost estimates. For
every dollar that actual costs are below target costs, CWI keeps 30 cents. For example, if it
completes the work at the $120.8 million cost estimated in 2009, CWI will show a cost
savings of $98 million based on the original contract estimate of $218.8 million, which
would result in an incentive fee of about $29 million. Any reduction to the $218.8 million
estimate through renegotiation could have reduced this incentive fee payment. While we
recognize that the Department would have, in all likelihood, had to compensate the
contractor for the lost opportunity to earn an incentive fee had it removed the work scope in
2008, neither the Department nor we can determine the net dollar effect on payments to the
contractor that would have resulted from the Department removing the work scope in 2008
and renegotiating its cost in 2009.

In response to our concerns about the large amount of incentive fee CWI could earn for
these projects, management stated that the contract modification related to the Recovery Act
and the incentive fee potential cannot be looked at in isolation from the other major changes
that occurred on the contract and that the Government will pay significantly less incentive
fee once the contractor's performance under the entire contract is considered. For example,
another major project in the contract, the Sodium Bearing Waste Project, is experiencing
significant cost increases such that the contractor will bear the extra costs to complete the
project. This will reduce the incentive fee the contractor will earn on the overall contract
performance. Management stated that to get a true picture of how much additional incentive
fee the Government will pay, these factors should be added to the equation. While we
acknowledge management's perspective, we believe that each component of the project
should be evaluated and actively managed against its own cost account.




                                          3

SUGGESTED ACTIONS

Effective contract administration has long been a challenge for the Department. It is the
Department's responsibility to ensure that the best value is obtained for the Government and
that changes to the contract are effectively managed. Accordingly, we suggest that the
Principal Deputy Assistant Secretary, Office of Environmental Management, ensure that
contracts are being actively managed by directing the Contracting Officer at its sites to:

   1.	 Formally remove work scope from contracts when work is pushed beyond the terms
       of the contract;

   2.	 Renegotiate performance incentives fees using current cost and pricing data, where
       appropriate; and,

   3.	 Ensure that contracts are managed in tandem with baseline changes.


LESSONS LEARNED/BEST PRACTICES

On July 13, 2011, the Office of Inspector General issued an audit report concerning the
Department and EM's efforts to decontaminate and decommission the K-25 Building at the Oak
Ridge Reservation, "The Department of Energy's K-25 Building Decontamination and
Decommissioning Project," (DOE/OIG-0854, July 13, 2011). That report raised cost and
schedule issues regarding the K-25 Building Project (K-25). In our view, there are aspects of
contract administration in common between the K-25 experience and the remediation effort at
Idaho, which is the subject of this report. We believe that the suggested actions noted above
represent lessons learned and best practices which may have application at EM sites throughout
the Department's complex.

No formal recommendations are being made in this report and a response is not required.




                                              Daniel M. Weeber, Director
                                              Environment, Technology, and
                                                Corporate Audits Division
                                              Office of Inspector General


Attachment

cc:	 Manager, Idaho Operations Office, NE-ID
     Director, Office of Management, MA
     Assistant Director, Office of Risk Management and Financial Policy, CF-50
     Audit Resolution Specialist, Office of Risk Management and Financial Policy, CF-50

                                         4

Team Leader, Office of Risk Management and Financial Policy, CF-50
Audit Liaison, Idaho Operations Office, NE-ID
Audit Liaison, Office of Management, MA-1.1
Audit Liaison, Environmental Management, EM-4.1




                                  5

                                                                                            Attachment


SCOPE AND METHODOLOGY

The audit was performed from April 2010 to March 2011, and included fieldwork at the Idaho
National Laboratory. The audit covered project documents from the Idaho Operations Office
(Idaho) as well as contractors CH2M♦WG Idaho, LLC (CWI) and Bechtel BWXT Idaho, LLC
(Bechtel). To accomplish the objective of this audit, we:

       Obtained and reviewed laws and regulations relevant to the American Recovery and
       Reinvestment Act of 2009 (Recovery Act);

       Obtained and reviewed the Department of Energy's (Department), the Office of
       Management and Budget's and the Idaho Operations Office's implementing procedures
       concerning Recovery Act requirements;

       Reviewed findings from prior audits regarding Recovery Act activities;

       Reviewed the CWI and Bechtel contracts;

       Held discussions with Department and contractor officials regarding Recovery Act
       activities for the various projects; and,

       Performed transaction testing for Recovery Act funded transactions.

We conducted this performance audit in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of our
audit. Also, we examined the establishment of performance measures in accordance with the
Government Performance and Results Act of 1993 as it relates to the audit objective and found that
the Department had established performance measures related to the use of Recovery Act funds for
environmental management projects. Finally, since we relied on automated data processing
information to accomplish our audit objective, we conducted an assessment of the reliability of
computer processed data.

The Idaho Operations Office waived the exit conference.




                                               6

                                                         IG Report No. OAS-RA-L-11-10


                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On
the back of this form, you may suggest improvements to enhance the effectiveness of
future reports. Please include answers to the following questions if they are applicable to
you:

     1.	 What additional background information about the selection, scheduling, scope,
         or procedures of the inspection would have been helpful to the reader in
         understanding this report?

     2.	 What additional information related to findings and recommendations could
         have been included in the report to assist management in implementing
         corrective actions?

     3.	 What format, stylistic, or organizational changes might have made this report's
         overall message more clear to the reader?

     4.	 What additional actions could the Office of Inspector General have taken on the
         issues discussed in this report which would have been helpful?

     5.	 Please include your name and telephone number so that we may contact you
         should we have any questions about your comments.


Name 	                                            Date

Telephone	                                        Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
